No. 19-1029
In The
___________
BETHANY AUSTIN,
v.

Petitioner,

ILLINOIS,
___________

Respondent.

On Petition for a Writ of Certiorari
to the Illinois Supreme Court
___________
BRIEF OF THE CATO INSTITUTE
AND DKT LIBERTY PROJECT
AS AMICI CURIAE
SUPPORTING PETITIONER
___________

March 20, 2020

Ilya Shapiro
Counsel of Record
Clark M. Neily III
Trevor Burrus
Jay R. Schweikert
Michael T. Collins
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

i
QUESTION PRESENTED
1. Whether strict First Amendment scrutiny applies
to a criminal law that prohibits nonconsensual dissemination of non-obscene nude or sexually oriented visual material?
2. Whether the First Amendment requires a law that
prohibits nonconsensual dissemination of non-obscene nude or sexually oriented visual material to
impose a requirement of specific intent to harm or
harass the individual(s) depicted?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
TABLE OF AUTHORITIES ..................................... iv
INTEREST OF AMICI CURIAE ............................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ......................................................... 2
ARGUMENT .............................................................. 4
I. The “Purely Private Matters” Test Is Limited
to Traditional Categorical Exceptions to First
Amendment Protection and Does Not Apply in
Criminal Law ........................................................ 4
A. The Public-Private Distinction Is a
Misconception of Past Extensions of First
Amendment Protection ................................... 5
B. This Court Should Clarify That There Is
No Distinction Between Public and Private
Speech in Criminal Law .................................. 8
C. Any New Distinction Between Private and
Public Speech Cannot Survive in the
Information Age............................................. 11
II. The Lower Court’s Application of “Time, Place,
and Manner” Revives a Misconception This
Court Corrected in Reed v. Town of Gilbert....... 14
III. States are Split Over Whether the First
Amendment Allows the Criminalization of
Nonconsensual Dissemination of Nudity
Based on Constructive Knowledge ..................... 18

iii
A. Other State Appellate Courts Require an
Intent Element Beyond Constructive
Knowledge ..................................................... 18
B. Without an Intent Element This Statute’s
Sweep Is Shockingly Vast ............................. 19
CONCLUSION ......................................................... 21

iv
TABLE OF AUTHORITIES
Page(s)
Cases
Ashcroft v. Free Speech Coal.,
535 U.S. 234 (2002) .......................................... 9, 10
Dun & Bradstreet v. Greenmoss Builders,
472 U.S. 749 (1984) ............................................ 6, 7
Gertz v. Robert Welch, 418 U.S. 323 (1973)............... 7
Heffron v. Int’l Soc’y for Krishna Consciousness,
452 U.S. 640 (1981) .............................................. 14
N.Y. Times Co. v. Sullivan,
376 U.S. 254 (1964) .......................................... 6, 10
NAACP v. Button, 371 U.S. 415 (1963) ................... 17
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) ...........................3, 15, 16, 17
Renton v. Playtime Theatres, 475 U.S. 41 (1986).... 17
Shelley v. Kraemer, 334 U.S. 1 (1948) ..................... 10
Snyder v. Phelps, 562 U.S. 443 (2011)............... 5, 6, 8
State v. Casillas, No. A19-0576, 2019 Minn. App.
LEXIS 400 (Minn. Ct. App., Dec. 23, 2019) ......... 19
State v. Curtis, 921 N.W.2d 342 (Minn. 2018) ........ 19
State v. VanBuren, 214 A.3d 791 (Vt. 2018) ........... 19
Texas v. Johnson, 491 U.S. 397 (1989) .................... 14
United States v. Alvarez, 567 U.S. 709 (2012) .... 9, 14
United States v. Stevens, 559 U.S. 460 (2010) ........ 10
Ward v. Rock Against Racism,
491 U.S. 781 (1989) .......................................... 4, 16

v
Statutes
730 Ill. Comp. Stat. 5/5-4.5-45(a) .............................. 9
720 Ill. Comp. Stat. 5/11-23.5 .................................... 8
720 Ill. Comp. Stat. 5/11-23.5(b)(1)(C) .................... 15
720 Ill. Comp. Stat. 5/11-23.5(b)(2) ............. 12, 16, 18
720 Ill. Comp. Stat. 5/11-23.5(c) .............................. 20
720 Ill. Comp. Stat. 5/17-1 ......................................... 9
720 Ill. Comp. Stat. 5/48-1 ......................................... 9
720 Ill. Comp. Stat. 648/40(a)(1)(C)........................... 9
Other Authorities
Jennifer M. Kinsley, First Amendment Sexual
Privacy: Adult Sexting and Federal Age
Verification, 45 N.M. L. Rev. 1 (2014) ................. 13

1
INTEREST OF AMICI CURIAE1
The Cato Institute was established in 1977 as a
nonpartisan public policy research foundation dedicated to advancing the principles of individual liberty,
free markets, and limited government. Cato’s Robert
A. Levy Center for Constitutional Studies promotes
the principles of constitutionalism that are the foundation of liberty. Cato’s Project on Criminal Justice
focuses on the proper role of the criminal sanction in
a free society, the scope of substantive criminal liability, the proper role of police in their communities, the
protection of constitutional and statutory safeguards
for criminal suspects and defendants, citizen participation in the criminal justice system, and accountability for law enforcement officers. To those ends, Cato
conducts conferences and publishes books, studies,
and the annual Cato Supreme Court Review.
The DKT Liberty Project was founded in 1997 to
promote individual liberty against encroachment by
all levels of government. The Liberty Project is committed to defending privacy, guarding against government overreach, and promoting every American’s
right and responsibility to function as an autonomous
and independent individual. It espouses vigilance
against government overreach of all kinds, but especially those that restrict individual civil liberties.
This case concerns amici because it is an example
of both rampant overcriminalization and overly
speech-restrictive statutes.
Rule 37 statement: All parties were timely notified and consented to the filing of this brief. Further, no party’s counsel authored this brief in any part and amici alone funded its preparation and submission.
1

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
A picture is worth a thousand words and, according to Illinois, a prison sentence. When Bethany Austin received sexually explicit images from her thenfiancé’s paramour, she quietly ended the relationship.
That upset the now-ex-fiancé, so he lied to Ms. Austin’s friends and family, claiming that he ended their
relationship because she was crazy and would not
cook and clean for him. Ms. Austin’s name had been
smeared in a classic “he-said-she said” situation, but
what “she said” was backed by hard proof. Ms. Austin
attached her proof to a heartfelt letter to friends explaining her side of the story. The ex-fiancé now seeks
to silence her, and the awesome power of the state is
happy to oblige. Illinois bans the dissemination of private sexual images, but its law violates the First
Amendment.
Despite concluding that the restriction discriminates between different types of speech, the court below erroneously applied intermediate scrutiny. The
court distinguished between public and private
speech outside of tort law and misunderstood the relevant precedent concerning content-neutral “time,
place, and manner” restrictions. In so doing, the court
incorrectly concluded that intermediate scrutiny applied. In fact, the statute must survive strict scrutiny.
The lower court was also incorrect to suggest that
private speech is less protected than speech on matters of public concern. That distinction was based on
an improper inference from this Court’s precedents
balancing First Amendment protection with traditional tort law. Speech on matters of public concern is

3
not the only speech that matters. And even if that distinction continues, it surely can apply only in civil disputes. Criminal penalties for private speech go far beyond Court precedent. Furthermore, a distinction between public and private speech would need to be rethought for the information age, which has blurred
the lines between the public and private spheres.
Nor can this law survive appropriate scrutiny
based on the legislature’s presumed good intentions.
Despite recognizing that the law is content-discriminatory, the court below held that a non-content-based
motive could save the statute. This flatly conflicts
with the standard recently clarified in Reed v. Town
of Gilbert, 135 S. Ct. 2218 (2015), which held that
courts may only look to the legislative motive of restrictions impacting speech when the law is facially
neutral. Well-meaning legislatures cannot save content-based discrimination with good intentions.
Finally, even if this Court—unlike the court below—finds that the statute does not regulate protected speech on its face, the statute is still overbroad.
There are legitimate reasons to have statutes that
criminalize nonconsensual dissemination of sexual
imagery, as exemplified by laws in many other states.
But unlike Illinois, those states cabin their statutory
schemes to punish only malicious nonconsensual dissemination. The prosecution below, where the victim
of an affair is targeted by her former fiancé for telling
her story, is enough to demonstrate that this statute’s

4
lack of a specific intent requirement renders it impermissibly overbroad and therefore unconstitutional.
ARGUMENT
The court below found that the Illinois law is content based. Pet. App’x 21a–22a. Nevertheless, it applied intermediate scrutiny to uphold the law. The
court erred for two reasons. First, the court below improperly applied a distinction between private and
public speech to minimize the level of judicial scrutiny, even though that distinction comes from the extension of the First Amendment into classic libel and
tort law. Second, despite this Court’s recent clarification of the law in Reed v. Town of Gilbert, the lower
court applied the now-defunct framework of Ward v.
Rock Against Racism, 491 U.S. 781 (1989) to hold that
this law was a content-neutral time, place, and manner restriction. Further, this law lacks an intent requirement common in many other states, which allows it to chill speech far outside its legitimate sweep.
I. THE “PURELY PRIVATE MATTERS” TEST
IS LIMITED TO TRADITIONAL CATEGORICAL EXCEPTIONS TO FIRST AMENDMENT
PROTECTION AND DOES NOT APPLY IN
CRIMINAL LAW
The First Amendment does not have inclusions, it
has exceptions: if speech does not fall within an exception, it is protected. There are very few categorical
exceptions to First Amendment protection. Pet. App’x
15a. “These categories include incitement, obscenity,
defamation, speech integral to criminal conduct,
fighting words, child pornography, fraud, true
threats, and speech presenting some grave and immi-

5
nent threat the government has the power to prevent.” Pet. App’x 16a. In one of these unprotected categories—defamation—the Court has recognized a
nested exception that increases the burden in a defamation action if the libelous speech is about a matter
of public concern. The court below misconstrued this
specific, context-dependent expansion of First
Amendment protection.
Whether the government deems a matter public or
private should have no bearing on the level of scrutiny
applied to criminal speech prohibitions. The court below, however, “conclude[d] that section 11-23.5(b) is
subject to an intermediate level of scrutiny also because the statute regulates a purely private matter.”
Pet. App’x 24a. That cannot be so.
A. The Public-Private Distinction Is a
Misconception of Past Extensions of First
Amendment Protection
Assuming for the sake of argument that it still applies anywhere, the supposed constitutional distinction between speech about matters of public concern
versus matters of private concern employed by the
court below certainly does not apply here. The court
below drew an erroneous inference from the reasoning in Snyder v. Phelps to support a conclusion that
the First Amendment is generally less protective of
speech on private matters as compared with public
matters. Pet. App’x 24a. Snyder affirmed the dismissal of a state tort verdict for an intentional infliction
of emotional distress (“IIED”) claim. 562 U.S. 443,
450–51 (2011). Because “speech on public issues occupies the highest rung of the hierarchy of First Amendment values, and is entitled to special protection,” the

6
First Amendment stepped into this private dispute to
extend its protection. Id. at 452; see also Pet. App’x
24a (referencing same). Here, the lower court mistakenly inferred that this perceived “hierarchy” placed
speech on private matters in a second class and accordingly lowered the government’s standard for restricting private speech by criminalizing it. But this
public-private speech distinction exists only in settings where the First Amendment ordinarily would
have no presence at all.
That this occurs so rarely presumably explains
why the lower court could only point to a single plurality opinion from this Court to suggest that the First
Amendment’s “protections are less stringent” for
speech on private matters. Pet. App’x 25a (quoting
Dun & Bradstreet v. Greenmoss Builders, 472 U.S.
749, 760 (1984)). But this language is plucked from
the narrow subset of cases balancing the First
Amendment with the longstanding law of defamation.
Considered in context, the Dun & Bradstreet plurality
limits the First Amendment’s protection only in suits
between private parties over private matters, and does
not supply any persuasive doctrinal support for the
private-public distinction created by the court below.
That’s because in the context of defamation suits,
a primary concern is with public figures using litigation to silence the press from reporting on matters of
public concern—yet the reasoning is being used here
to silence Ms. Austin. The law of defamation existed
largely unaltered in this country from the Founding
until 1964, when this Court increased the standard
for prevailing in a defamation action when the alleged
libel was about a matter of public concern. See N.Y.
Times Co. v. Sullivan, 376 U.S. 254, 281–82 (1964)

7
(holding the First Amendment required a qualified
and limited “privilege” against the traditional common-law libel action for those engaged in “criticism of
official conduct”). A follow-on case cabined this privilege to defamation actions implicating public officials
and matters of public concern. Gertz v. Robert Welch,
418 U.S. 323, 347–48 (1973). Gertz also restricted the
available damages in defamation cases by private
parties where the libel was on a matter of public concern. Id. at 349–50.
Against this backdrop, Dun & Bradstreet held that
normal defamation actions—solely between private
parties concerning matters that are not of public concern—would not implicate the Sullivan or Gertz enhanced standards. Dun & Bradstreet, 472 U.S. at 761
(plurality). This line of cases did not create a general
hierarchy of speech to be used in all settings. Instead,
the cases reflect a delicate balance between the values
expressed in the First Amendment and the states’ interest in preserving the traditional common-law remedies for defamation. Id. at 757.
In short, the “less stringent” protections afforded
to speech on matters of private concern is limited to a
specific context. Although speech on matters of public
concern will justify this Court’s interference with traditional rules of common-law defamation, this Court
has declined to alter defamation law when the dispute
between private individuals concerns private mat-

8
ters. But this unwillingness to extend further protections in one instance does not then imply a limit on
protection in all instances.
Here is where the misunderstanding of Snyder
arises. Although state tort claims can sometimes involve doctrinal compromises outside the usual bounds
of the First Amendment, this Court expanded First
Amendment protection to state IIED claims. See
Snyder, 562 U.S. at 458. Matters of public concern enjoy “special protections” that allow courts to interfere
in private disputes that effect speech. But generally,
matters of public concern are first among equals receiving First Amendment protection.
B. This Court Should Clarify That There Is
No Distinction Between Public and Private Speech in Criminal Law
Even if the private-public distinction escapes the
narrow confines of libel law where it was born, as
might be inferred from Snyder, it must be limited to
actions between private parties.
Per Snyder, the key balancing factor in extending
the First Amendment to a private lawsuit is the
threat of tort liability imposing “self-censorship on
matters of public import.” 562 U.S. at 452. An IIED
claim or a defamation suit certainly have the potential to chill speech with the threat of a substantial
damages award against a speaker. But the line must
be drawn between criminal and civil claims. While
considering separate state laws—enacted after-thefact to regulate the type of speech giving rise to the
IIED claim—Snyder distinguished laws violating the
First Amendment from torts violating the First
Amendment. See id. at 456–57 (“To the extent these

9
laws are content neutral, they raise very different
questions from the tort verdict at issue in this case.”).
There is no way a libel or IIED claim alone could send
a defendant to prison.
But prison is exactly what awaits Ms. Austin. A
conviction of under this statute is a class four felony.
720 Ill. Comp. Stat. 5/11-23.5. Class four felonies
carry a mandatory minimum sentence of one year in
prison.2 730 Ill. Comp. Stat. 5/5-4.5-45(a). Unlike the
potential civil damages at issue in Snyder and Dun &
Bradstreet, this is a criminal penalty that is not
merely likely to chill but is in fact designed to silence
any presumptively protected speech, not merely
speech on matters of public concern.
Criminal statutes like this one threaten to chill all
speech because they carry “severe penalties.” See Ashcroft v. Free Speech Coal., 535 U.S. 234, 244 (2002).
The First Amendment protects public and private
conversations alike from criminal penalties. This
Court made no distinction between public and private
statements when invalidating the Stolen Valor Act:
“This comports with the common understanding that
some false statements are inevitable if there is to be
an open and vigorous expression of views in public
and private conversation, expression the First
Amendment seeks to guarantee.” United States v. Alvarez, 567 U.S. 709, 718 (2012) (emphasis added). Lying about military honors is protected from criminal
For comparison, other class four felonies include: acquiring
30,000 milligrams of ephedrine or pseudoephedrine (methamphetamine precursors) in a 30-day period, 720 Ill. Comp. Stat.
648/40(a)(1)(C); organizing dogfighting, id. at 5/48-1; or several
varieties of fraud, id. at 5/17-1.
2

10
penalty whether done during an election campaign or
while bragging at the bar.
Even when private speech is abhorrent, it is protected from criminal sanction. Mere possession of images of animal cruelty can hardly be called a matter
of public concern. See United States v. Stevens, 559
U.S. 460 (2010) (invalidating criminal prohibition of
“possession of certain depictions of animal cruelty.”).
Nor can creating virtual child pornography be considered a matter of public concern. See Free Speech Coal.,
535 U.S. at 258 (invalidating a statute prohibiting
creation of virtual child pornography). Neither type of
speech can be considered a matter of public concern,
except in the sense that the public may be concerned
with the mental well-being of the people who possess
such images.
That is because the First Amendment prohibits
the use of government power to suppress speech. This
is the underlying basis for the private-public distinction in tort. This Court has long opposed private use
of the courts to achieve ends antithetical to our constitutional values. Public officials in their private capacity may not use the courts as a mechanism to silence the free press even when the press gets something wrong. N.Y. Times, 376 U.S. at 271–75. Similarly, private violations of the Fourteenth Amendment may rely on the power of the courts. See Shelley
v. Kraemer, 334 U.S. 1, 18 (1948) (finding a Fourteenth Amendment violation when state courts make
the “full coercive power of government” available to
enforce racially restrictive covenants). There can be a
First Amendment violation in civil cases, not for the

11
private attack on speech, but for the courts’ role as an
instrument of that attack.
But in criminal contexts, the courts are not mere
instruments of private parties, but weapons of a coercive government. This private-public distinction cannot be allowed to escape its original protective context
only to serve as an excuse for speech suppression.
C. Any New Distinction Between Private
and Public Speech Cannot Survive in the
Information Age
The public-private distinction articulated in the
court below does not exist in criminal case law, and
courts should not create any broader distinction without considering the grave technological consequences
of doing so. It is axiomatic that advances in communications technology have rendered ever more tenuous
what may once have seemed a clear line between the
public and private spheres.
As a result, privacy determinations can no longer
rely on the stark difference between Polly sending
Ann a sealed letter, on one hand, and Martin Luther
nailing his missive to the front door of a church. When
lines of communication are numerous and varied,
when does a missive cross from being private to public? If Polly wants to give a message to Ann, she may:
whisper in Ann’s ear; speak to her alone; speak to her
in a crowded room; send her an encrypted message on
WhatsApp; send an unencrypted text on iMessage;
put her message into a group chat with mutual
friends; post on the wall of a private Facebook group;
post on Ann’s Facebook wall; post on Facebook’s timeline and tag Ann; send the message to an iCloud ac-

12
count Ann shares with others; write a letter to the editor hoping Ann reads it; and, of course, nail the message to Ann’s door.
This merger of public and private spheres is neither hyperbole nor mere conjecture. A viral post
(“tweet”) on Twitter from a relatively unknown user
can (and routinely does) explode into a major news
story seen around the world. A legal doctrine that
tries to distinguish between speech on public and private matters must account for the fact that the “public” from which the “private” is purportedly to be distinguished is inevitably context dependent. Each individual scrap of information needs to be judged based
on which “public” saw the message and which “public”
is concerned. These relevant contextual milieus
change by the day and the activity. For instance, a
college vlogger’s family troubles may be of great concern to her 20,000 YouTube followers and of no concern to her organic chemistry classmates.
Equally inchoate is the ability of the reasonable
person to infer whether speech is to remain private.
However alarming or distasteful to earlier generations, the transmission of sexual images to other people is fraught with rapidly evolving social, cultural,
and technological mores.
Against that backdrop, consider that the statute at
issue here requires the perpetrator to have “obtain[ed] the image under circumstances in which a
reasonable person would know or understand that the
image was to remain private.” 720 Ill. Comp. Stat.
5/11-23.5(b)(2). With modern technology, what should
the reasonable person expect is intended to remain
private? The line must be somewhere between private

13
boudoir photographs delivered by hand and subject to
a written non-disclosure agreement and posting images of one’s nude body to any of the myriad internet
sites that permit—or even welcome—such expression.
What is the recipient meant to infer from a message that is somewhere in between? For instance, Millennials have developed an app called Snapchat. This
app allows a person to send sexually explicit images—
and others—to other users that will be deleted within
a few seconds of being seen. See Jennifer M. Kinsley,
First Amendment Sexual Privacy: Adult Sexting and
Federal Age Verification, 45 N.M. L. Rev. 1, 27, 29
(2014). Obviously, there is an increased expectation
that images sent via an app that ensures they will
self-delete will remain private, but the existence and
common usage of such an app necessarily limits the
expectation of privacy in traditional image-sharing
messages that are more permanent and sharable.
What is someone supposed to infer from images sent
through regular texting? Suppose a person were to
send enduring (as opposed to self-deleting) images not
only to a romantic partner’s private email account but
to an account known to be shared with a former romantic partner? Can the sender reasonably expect
privacy in images sent to an account shared by the
exact person most likely to be upset by them?
Those issues converge on this case. Ms. Austin received images that were somewhere between being
personally delivered by one paramour to another in a
sealed envelope and being deliberately posted on a
public YouTube channel by the person depicted.
Moreover, knowing Ms. Austin possessed images that
would discredit his attack, her ex-fiancé disseminated
a false and hurtful narrative about their breakup. The

14
termination of a wedding engagement will generally
be of interest to one’s social circle, whether one’s last
name is Austin or Kardashian. The Constitution protects the rights of people to discourse with their social
circle—there “public” large or small—free from the
fear of criminal charges.
II. THE LOWER COURT’S APPLICATION OF
“TIME, PLACE, AND MANNER” REVIVES A
MISCONCEPTION THIS COURT CORRECTED IN REED V. TOWN OF GILBERT
Illinois’s law cannot survive as a content-neutral
“time, place, and manner” restriction. The court below
also applied intermediate scrutiny because of a misunderstanding of the required content neutrality for
a legitimate time, place, and manner restriction.
Speech restrictions cannot be “based upon either the
content or subject matter of speech.” Heffron v. Int’l
Soc’y for Krishna Consciousness, 452 U.S. 640, 648
(1981). In fact, the First Amendment requires that
“content-based restrictions on speech be presumed invalid” and “the Government bear[s] the burden of
showing their constitutionality.” Alvarez, 567 U.S. at
716–17. Any restrictions must “serve a significant
governmental interest, and . . . leave open ample alternative channels for communication of the information.” Heffron, 452 U.S. at 648. This does not allow
for a content-based distinction between sexual and
non-sexual images to survive simply because it is accompanied by non-content restrictions.
To illustrate, if a state ban on flag-burning would
clearly be unconstitutional. See Texas v. Johnson, 491
U.S. 397 (1989). It does not, however, violate the First
Amendment to ban setting fire (manner) to any items

15
on public sidewalks (place) during business hours
(time). This reasonably limits the time, place, and
manner of speech with no reference to the expressive
content of the item burned or the act of burning.
Would it then be constitutional to ban burning the Illinois flag—and only the Illinois flag (content)—in
front of the state capitol (place) between nine and five
o’clock (time)? No. If the statute allowed burning of
other flags, or items, it would still be a content-based
rule regardless of the time and place restriction.
The statute here is not content-neutral. This Court
recently clarified the test for content neutrality in
Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015). Reed
invalidated a town sign code that organized types of
signs into categories—ideological, political, and event
signs—based on content but regulated the time, place,
and manner of display for all signs within the same
category equally. Id. at 2224–25. The content discrimination in establishing the sign categories violated the
First Amendment. Id. at 2227. Content discrimination is no less content based for being a step removed
from a time, place, or manner regulation.
The statute here is similarly content-based. It creates four categories of speech based on two questions:
one content based, the other neutral. First, do the disseminated images display sexual activity or intimate
parts? 720 Ill. Comp. Stat. 5/11-23.5(b)(1)(C). The image’s content provides the answer to this first question. After this content determination, the image falls
into one of two categories: (1) non-sexual, and (2) sexual. If the image is in category (1), the image may still
be prohibited because the statutory definition is broad
enough to include nonsexual nude imagery. 720 Ill.

16
Comp. Stat. § 5/11-23.5(a).(b). If the image is in category (2), the next question is whether it was “obtain[ed] . . . under circumstances in which a reasonable person would know or understand that the image
was to remain private.” Id. 5/11-23.5(b)(2). The court
below considered this second question to be a neutral
restriction based on the “manner of the image’s acquisition.” Pet. App’x 23a (emphasis removed).
But the merits of that conclusion are irrelevant because of the first question. This manner restriction
only comes into being after an improper content determination in contradiction of Reed. The essence of
the time, place, and manner restriction doctrine is
that the restriction applies evenly regardless of the
content of the speech. But the court below concluded
that this content discrimination was acceptable.
That reasoning relied on a misapplication of the
holding in Ward. v. Rock Against Racism, 491 U.S.
781 (1989), which this Court corrected in Reed. 135 S.
Ct. at 2228–29. In Reed, the lower court had understood Ward to mean “that a government’s purpose is
relevant even when a law is content based on its face.”
Id. at 2228. Similarly, the court below recognized
“that section 11-23.5(b) on its face targets the dissemination of a specific category of speech—sexual images,” but, as the regulation serves a purpose unrelated to the content being expressed, it held the statute to be neutral. Pet. App’x 21a–22a. This revival of
the misunderstanding of Ward undermines this
Court’s clear guidance in Reed.
If the Court does not take this case, then Reed’s
clarification of the content-neutrality standard will
not apply to Illinois. Reed clarified the ambiguity in

17
Ward, which seemed to allow a content-discriminatory statute passed with a benign motive. 135 S. Ct.
at 2229. But Ward held that a discriminatory intent
will invalidate an otherwise content-neutral statute.
Id. If the statute is facially content-based, then the
question of legislative purpose should not be
broached. Id. Nevertheless, when the court below recognized “that section 11-23.5(b) on its face targets the
dissemination of a specific category of speech,” it continued to question the motive. Pet. App’x 21a.
However pure the legislative motive here, it cannot save a facially content-based statute. Reed explained the danger: future governments with less
clean motives may use content-based regulations to
penalize unpopular views. For example, states have
used statutes “prohibiting ‘improper solicitation’ by
attorneys to outlaw litigation-related speech of the
National Association for the Advancement of Colored
People.” Reed, 135 S. Ct. at 2229 (citing NAACP v.
Button, 371 U.S. 415, 438 (1963)).
Finally, the decision below cannot be justified
based on the cases concerning zoning restrictions on
adult cinemas. See Pet. App’x 21a–22a (citing Renton
v. Playtime Theatres, 475 U.S. 41, 47 (1986)). Renton
is inapposite for two reasons. First, it predates both
Ward and Reed and does not have the benefit of this
Court’s clarification of content neutrality. Second,
Renton concerned a circumscription on where adult
theaters may speak, not a ban on the speech itself. Id.
at 48. Absent a similar ban, Renton serves mainly as
an example of an appropriate restriction that did not
prevent any speech. Even still, this case provides the

18
Court with the opportunity to clarify any lingering
ambiguity in Renton, as it did with Ward in Reed.
III. STATES ARE SPLIT OVER WHETHER THE
FIRST AMENDMENT ALLOWS THE
CRIMINALIZATION OF NONCONSENSUAL
DISSEMINATION OF NUDITY BASED ON
CONSTRUCTIVE KNOWLEDGE
Even if similar content-based restrictions could
survive judicial scrutiny, this one lacks a basic limiting principle—a mens rea requirement—making the
statute facially overbroad. Under the decision below,
a person may go to prison if she “obtain[ed] the image
under circumstances in which a reasonable person
would know or understand that the image was to remain private.” 720 Ill. Comp. Stat. 5/11-23.5(b)(2);
Pet. App’x 47a. Because the law uses the “reasonable
person” standard, actual knowledge isn’t required.
A. Other State Appellate Courts Require an
Intent Element Beyond Constructive
Knowledge
Illinois currently allows constructive knowledge to
replace the illicit intent required by other states. As
Ms. Austin notes, this is contrary to the majority of
state nonconsensual nudity laws, which require some
kind of illicit intent element. Cert. Pet. 23–26. An illicit intent element is necessary to cure the chilling
effect this statute has on protected speech.
An illicit-intent element has been crucial to other
state courts reviewing similar statutes. An intermediate appellate court in Minnesota invalidated a similar
statute recently for failure to limit its mens rea. See
State v. Casillas, No. A19-0576, 2019 Minn. App.

19
LEXIS 400 (Minn. Ct. App., Dec. 23, 2019). The Minnesota court distinguished the Illinois court’s opinion
below, because, unlike Illinois, Minnesota case law required an illicit intent to survive a First Amendment
overbreadth challenge. Id. at *24–25 (citing State v.
Curtis, 921 N.W.2d 342, 343 (Minn. 2018)). This Court
can remedy this discrepancy by requiring every state
court consider the intent element of a statute in an
overbreadth challenge as Minnesota does.
And Minnesota is not alone in requiring an illicit
intent. The Vermont Supreme Court upheld a similar
statute, precisely because it was limited by an illicit
intent requirement. State v. VanBuren, 214 A.3d 791,
812 (Vt. 2018). Crucially, the statute at issue did “not
reach even knowing, nonconsensual disclosures of images falling within the narrow statutory parameters
unless disclosure would cause a reasonable person to
suffer harm.” Id. This made it unlikely the statute in
that case would sweep up protected speech as the Illinois statute has here.
B. Without an Intent Element This Statute’s
Sweep Is Shockingly Vast
This case is the most obvious example of the broad
sweep of Illinois’s law. The statute is being weaponized to punish a woman for telling her side of the story
of a break-up. The law is clearly not intended to be
used this way, yet it is here. And as Ms. Austin, other
amici, and the dissent below show, this statute leads
to absurd results.
The majority below does not and cannot answer
the following hypothetical posed by the dissent. In an
increasingly technological age, people are more likely

20
than ever to receive sexual images they know are intended to remain private but would really prefer not
to see. This statute would bind recipients to the intentions of senders. As the dissent suggests:
Two people go out on a date, and one later sends
the other a text message containing an unsolicited and unappreciated nude photo. The recipient then goes to a friend, shows the friend the
photo, and says, “look what this person sent
me.” Has the recipient committed a felony? The
State conceded that the recipient had.
Pet. App’x 69a (Garman, J., dissenting).
Likewise, as the petitioner notes, this law makes
it difficult for Ms. Austin to seek solace and healing
even if she remains silent on her side of the break-up
story. If she sought therapy or the comfort of a friend
to overcome her fiancé’s betrayal, she would be a criminal for showing that person the source of her unhappiness. Cert. Pet. 26. In fact, if the images were sent
to a mutual friend, that friend could be imprisoned for
showing them to Ms. Austin.
The statute goes even further. Although it provides exceptions for dissemination to report unlawful
or criminal conduct, it provides no allowance for victims of criminal conduct who seek healing or remedies
at a lower level than criminal charges. See 720 Ill.
Comp. Stat. 5/11-23.5(c). Much like Ms. Austin, a hypothetical victim of sexual harassment is barred from
being fully open with her therapist. She cannot show
a professional the images that caused her trauma unless she wants to file an official report. This all-ornothing attitude drastically limits the options available to victims. And the exception for dissemination

21
that serves a nebulous “lawful public purpose” give no
comfort. There is no explanation of this exception and
so a hypothetical victim—fearing the kind of retaliation charge on full display below—would be chilled
from expressing her protected speech.
These chilling effects could be avoided if the Illinois law, like many others, was limited by an illicitmotive requirement. Ms. Austin is not a criminal under any meaningful definition of the term. This Court
should clarify that these types of laws need intent requirements.
CONCLUSION
For the foregoing reasons, and those stated by the
Petitioner, the petition should be granted.
Respectfully submitted,

March 20, 2020

Ilya Shapiro
Counsel of Record
Clark M. Neily III
Trevor Burrus
Jay R. Schweikert
Michael T. Collins
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

